/	                                                                                                                           .

             I	
             .~
                           t -. 	                           NATIONAL SCIENCE FOUNDATION
                                                                                                                            t

                                                                  4201 WILSON BOULEVARD
                                                                 ARliNGTON. VIRGINIA 22230




                      OFFICE OF 

                  INSPECTOR GENERAL 

            MEMORANDUM
,	          DAlE:                            August 22, 1997                           .~
i
I
; -- ----- .____.IO.!_____	 « __   -   _ _   File..N.o.~~L01.0.029...... __ ......._.__.. _._
                                                                                                '---------------=:------ -_.------_..­
            FROM:

            RE:


             On July 1, 1997, our office .received an anonymous letter 

           _                  an NSF princiPali!'nvestiator (PI) at the 

            ~nt(s) alleged that                             ad sent nearly IGentllcai POOIPOI;alS
             agencies and received funding fo~ t ese proposals. They also 3J.leged                     travel funds
             for unnecessary trips, and tak.es his wife to conferences and din~ers at the expense of sponsors.

            I reviewed _        NSF grants from 1992 to present'           -and _ . The former
            is a current grant. In the current and                      section ~sal. Miller did
            not include his liPA grant no.                       make referen~e to this in the body of the
            propos,al. It is possible that            in t                     have been an oversight and
            not intentional. In reviewing the_section                        there was no evidence of any
            other ~ants, federal or non,federal,~ excluded from this section.

            I reviewed a list of current and closed grants                                      the past three years from federal and
            non,federal sources.' I reviewed liPA grant no.                                      and found no duplication t~
            NSF proposals.

                                                         submitted only. 1 travel voucher for a trip to the Fall 1996
                                              """'~'''.6 in San Francisco, CA. I found no· evidence of third party
                                       .             charges, i.e. for ~fe, or other types of fraud from this
            travel voucher and source documentation. ~t=rfudit has decided to inquire" as to why"
            the expenses for this trip were divided between two of_federal grants (NSF and EPA).                   .

            There is no evidence which supports the allegations received by this office. At this time, this case
            is closed.
